<html>
<title> - THE CONTINUING THREAT OF BOKO HARAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                  THE CONTINUING THREAT OF BOKO HARAM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-114

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-552 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director


    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                     









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Linda Thomas-Greenfield, Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     7
Mr. Emmanuel Ogebe, managing partner, U.S.-Nigeria Law Group.....    27
Mr. Habila Adamu, survivor of violence by Boko Haram.............    47
Mr. Jacob Zenn, research analyst, The Jamestown Foundation.......    55
Guy Nkem Nzeribe, Ph.D., partner, Guy Nzeribe Associates.........    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Linda Thomas-Greenfield: Prepared statement........    10
Mr. Emmanuel Ogebe: Prepared statement...........................    32
Mr. Habila Adamu: Prepared statement.............................    49
Mr. Jacob Zenn: Prepared statement...............................    57

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79

 
                  THE CONTINUING THREAT OF BOKO HARAM

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 1 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Organizations) presiding.
    Mr. Smith. The hearing will come to order and good 
afternoon to everybody. Today's is a joint hearing of our 
subcommittees and I thank Chairman Poe for working so well with 
our subcommittee. This is of combined interest to the terrorism 
and of course, the Africa subcommittee.
    Let me begin with my opening comments and then we will go 
to my distinguished colleagues and then, of course, to you, 
Madam Assistant Secretary.
    Nigeria is one of the United States' main Africa trading 
partners and good friend, ally, and a major economic and 
political force beyond, even the African continent. 
Unfortunately, it continues to be plauged by terrorist forces 
whose reach extends beyond the borders of that country. Today's 
hearing is intended to examine the extent to which the 
organization known as Boko Haram and its affiliates pose a 
threat to Nigeria, and the region, as well as the United States 
and the rest of the international community.
    Boko Haram is a Nigerian terrorist organization whose full 
name in Arabic means ``People Committed to the Propagation of 
the Prophet's Teachings and Jihad.'' The name Boko Haram is a 
translation meaning that conventional education, Boko, is 
forbidden. Because of its repeated attacks against Christian 
targets, especially holy days such as Christmas and Easter. 
Boko Haram is seen by some as principally anti-Christian. In 
the last year alone, Boko Haram terrorists are believed to have 
killed some 1,200 Christians in Nigeria. In fact, it is 
estimated that 60 percent of Christians killed worldwide 
because of religious intolerance die in Nigeria.
    According to Mr. Emmanuel Obege, one of our witnesses who 
will be testifying shortly, 53 Christian churches have been 
attacked and 216 people have been murdered by terrorists in 
those churches. However, it would not be a completely accurate 
interpretation of the facts to assume that what is happening in 
Nigeria is just a Muslim-Christian conflict. In the past 2 
years, both of our subcommittees have sent staff delegations to 
investigate the Boko Haram threat.
    And this past September, Gregory Simpkins, our subcommittee 
staff director, and I visited Abuja and Jos to further look 
into this matter. We found that the truth of this organization 
is much more complex than is widely understood. Although exact 
numbers were not made available to us, Boko Haram is definitely 
targeting other Muslims who don't agree with their views. 
Muslim pastors who criticized the terrorists' violence are 
themselves made targets. We were told by some that if an imam 
or some teacher in a mosque speaks out against Boko Haram on a 
Friday, he will be targeted for death on Saturday. What must be 
prevented in a growing inability for Christians and Muslims to 
work together to meet their common threat. And we found 
enormous examples, numerous examples I should say, of 
cooperation between Christian and Muslim leaders to combat this 
killing spree by Boko Haram.
    According to various reports, Boko Haram began in 2003, 
when about 200 university students and unemployed youth created 
a camp in Yobe State near the Niger border to withdraw from 
what they considered the corrupt, simple, and unjust Nigerian 
Government and their community was supposedly founded on 
Islamic law. The group was also known by the nickname the 
``Nigerian Taliban.'' Violent clashes with Nigerian security 
forces destroyed the group several times, but its charismatic 
leader, Mohammed Yusuf, kept the group alive until his death 
while in police custody in July 2009. Since Yusuf's death, 
there have been various spokesmen, but one person who is 
believed to be the nominal leader, Abubakar Shekau. Further, a 
breakaway group known as Ansaru, has appeared on the scene.
    The proliferation of voices speaking for Boko Haram and the 
new faction leads some to believe that this is not a coherent 
organization. We learned that it is actually a very 
sophisticated organization, operating in cells disconnected 
from each other, but coordinating at a high level. While there 
are some acting in the name of Boko Haram for their own 
purposes, this terrorist group is organized, albeit in an 
unconventional manner.
    Some also believe that this group is purely a domestic 
terrorist group operating in Nigeria. We found that to be a 
false assumption as well. Boko Haram and Ansaru do wage attacks 
on the Nigerian Government and other domestic targets. 
Nevertheless, their actions prove their participation in the 
global jihad movement that wages violent war worldwide to 
establish their skewed version of Islam as the prevailing 
religion globally. Various actions such as the bombing of the 
United Nations office in Abuja in August 2011, and numerous 
statements from Boko Haram's spokesmen indicate their 
international intent. This international focus has been 
confirmed by both American and Nigerian intelligence 
information.
    The three criteria for an organization to be declared a 
foreign terrorist organization by the U.S. Government are (1) 
it must be a foreign organization; (2) engage in terrorist 
activity; (3) it must threaten the security of the United 
States nationals, U.S. national security, or the economic 
interests of the United States. Clearly, Boko Haram/Ansaru 
meets that test and we do welcome the news that was announced 
earlier today.
    I have introduced HR 3209 which urged the administration to 
declare Boko Haram a foreign terrorist organization. This 
measure would provide tools for stopping those who currently 
provide funding for others in their murderous, terrorist 
organizations that they run. And again, we welcome the State 
Department's statement today that they will declare Boko Haram 
an FTO.
    Our Government has provided training and other assistance 
to the Nigerian Government to battle this terrorist threat. 
Unfortunately, the past brutally demonstrated by the Nigerian 
security forces, as well as the inability of Nigerian security 
forces to collaborate with one another, have prevented their 
effort from being as successful as it should be. In far too 
many cases, the Nigerian Government itself has actually turned 
local people in the North against its effort to win the 
terrorist threat. By that ineffectiveness, the Nigerian 
security forces have pushed Nigerian Christians and Muslims to 
form their own militias to protect themselves from terrorists 
and each other. In the long run, this development makes 
eventual reconciliation of Nigeria's various religious and 
ethnic communities even more difficult.
    We have with us today the administration's point person for 
our Government's effort to help end the terrorist threats to 
Nigeria; a leading Nigerian spokesman against this terrorism; a 
Nigerian Christian expert on this terrorist threat; and an 
American-based expert on this violence; and a survivor of the 
Boko Haram threat that Greg and I met when we were in Jos. This 
survivor, Mr. Adamu, was challenged to renounce his Christian 
faith. When he refused, he was shot right through the mouth, 
right through the lower part of his face and left for dead, 
bleeding. Miraculously, he survived and joins us today, one of 
the most inspiring examples of faith because he was told 
``renounce your faith and you will live, if you don't, you will 
die.'' And so a man that has unbelievable courage as well as 
faith. He says, ``I have a message to everyone that will hear 
my story. Do everything that you can to end this ruthless 
religious persecution in northern Nigeria.''
    I now would like to yield to Ms. Bass for any opening 
comments she may have.
    Ms. Bass. Thank you, Mr. Chairman, Chairman Poe and Ranking 
Member Sherman. I want to thank you for your leadership in 
calling today's hearing and I want to extend my greetings and 
welcome to the Assistant Secretary. I believe this is your 
first time you are coming to testify in your current capacity, 
but we will give you a more proper welcome next week, so 
welcome.
    Nigeria is a critical, strategic partner for the United 
States. As Africa's most populous nation and with an economy 
that has the potential to be the largest on the continent, it 
is important politically, economically, and socially. Its 
importance cannot be overstated.
    We know that this is the reason for the hearing today in 
focusing on Boko Haram. There is no question that Boko Haram 
presents an important and critical security challenge for 
Nigeria, West Africa, and I believe the continent as a whole. 
The frequency of attacks, its reach and the brutality and the 
lethal dimension of those attacks are a serious problem that 
must be addressed.
    Since 2010, the scale of attacks by Boko Haram have led to 
the deaths of nearly 4,000 people including children. The group 
has used car bombs, improvised explosive devices, and suicide 
attacks to exact a heavy and unforgiving toll on the Nigerian 
people. Boko Haram has attacked churches, schools, police 
stations, and places where civilians are known to frequent 
including bars and markets.
    While Boko Haram's attacks can in no way be justified, we 
do know that their long-standing grievances that may be leading 
to young men being recruited into their ranks. The slow pace of 
development in Nigeria's north including that of infrastructure 
development, jobs, and greater investments in the region, have 
if not a direct result, may be at least partially to blame. We 
have seen similar frustrations across the continent, 
particularly in Somalia where large numbers of young people, 
desperate for opportunities have found negative outlets like 
al-Shabaab.
    As the Nigerian Government has rightly moved to address the 
internal threat of Boko Haram, the international community has 
been critical over concerns over human rights abuses. While 
civilians have not been the target of efforts to fight Boko 
Haram, civilians have nonetheless been caught in the violent 
middle ground.
    I want to conclude by saying that I am keenly aware of the 
various sides that seek a greater and more executing response 
by our Government. As the Assistant Secretary will share, I 
know we continue to consult with Nigerian authorities on a 
range of efforts to ensure that Boko Haram, its leaders and 
fighters are held accountable for past, and any future attempts 
to destabilize the Nigerian Government and its brazen attacks 
on civilians. And in this, we look forward for all and new 
opportunities to stop Boko Haram from further expansion and 
further violence.
    Thank you, and I look forward to the hearing.
    Mr. Smith. Thank you, Ms. Bass. I would like to now yield 
to the co-chairman of this hearing, the chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade, the 
distinguished gentleman from Texas, Mr. Poe.
    Mr. Poe. I thank the gentleman for yielding. Boko Haram is 
a vicious terrorist group that carries out daily attacks 
against the Nigerian people. They target Christians, moderate 
Muslims as well. They kill in the name of religion. They 
promote anarchy.
    This past summer, I sent my staff to Nigeria in early 
August to get a sense of the situation on the ground. What they 
found was alarming, sobering, and inhumane. Boko Haram finds it 
roots in the keenly conservative north of Nigeria. After its 
leader was killed in 2009, Boko went underground, but they 
emerged in 2010 as a more radical and violent group led by a 
vicious killer named Shekau. They attacked Christians on 
Christmas Day 2010, Christmas Day 2011, Christmas in 2012. 
Eighty-six people were killed on 2010; 42 in 2011; and 12 on 
2012.
    Mass beheadings, child soldiers, and forced marriages of 
local women to Boko Haram members are now more commonplace. 
Boko Haram's mystique is furthered by social media users who 
spread their propaganda statements among jihadists wannabes and 
people who just want to kill other people. The group was 
responsible for a 2010 prison break that freed 700 prisoners 
and a bombing of the city of Jos that killed more than 80 
people. In 2011, Boko bombed a police headquarters in the 
Nigerian capital of Abuja and carried out a massive suicide 
attack against the U.N. headquarters there.
    This year, just a few weeks ago on September 29th, it 
targeted an agricultural college and killed 40 students in a 
dormitory. Some say that the Nigerian military's heavy-handed 
response simply adds fuel to the fire of Boko Haram's 
recruitment. Everyone agrees that corruption does hamper the 
military's efforts. It means that the general population is 
frustrated that they do not receive basic services like 
education and healthcare. It also means that the economy in 
many parts of the country is not doing well because there are 
not enough basic infrastructure like roads and schools. And 
that makes recruitment for Boko Haram even easier.
    When it comes to fighting the Boko Haram, the military is 
corrupt and there is no money left over to pay the salaries of 
the soldiers that actually do the fighting. In addition to Boko 
Haram, Nigeria also has a more extremist offshoot terrorist 
group called Ansaru. This group is closely allied to al-Qaeda 
and may seek to strike targets outside of Nigeria's borders. 
Boko Haram has embraced international jihad with its attacks on 
the U.N. and Abuja. In 2011, the former commander of the U.S. 
Africa Command said that Boko Haram was in contact with AQIM 
and al-Shabaab. We ought to be on the lookout for increasing 
international agenda for this terrorist organization. Boko 
fighters go to Mali and Cameroon to train and get weapons and 
munitions. As a result of pressure from the military, reports 
show that the terrorist group may be spreading in small numbers 
to economic centers in the south. Boko Haram sustains itself, 
finances its killings by kidnapping for ransom, extortion, 
taxation, protection rackets, smuggling, and any type of 
criminal enterprise that they can think of. Boko Haram isn't 
rolling in dough, but it doesn't take that much money to wage 
an insurgency. This is one of the reasons why I support the 
State Department's designation today of Boko Haram as a foreign 
terrorist organization. It is long overdue. We need to apply 
all the tools that we have to stop these terrorists. Now that 
Boko Haram has been designated, we need to uncover their 
financial operations and force this designation and go after 
these outlaws.
    We look forward to the hearing from our witnesses on the 
threat from Boko Haram. I yield back.
    Mr. Smith. Thank you, Chairman Poe. Ranking Member Sherman.
    Mr. Sherman. Thank you for holding this hearing. I have 
been told Boko Haram means ``Western education is sinful'' in 
the Hausa language. That may differ a little bit from the 
linguist derivation provided by the gentleman from New Jersey, 
so our witness will tell us the linguistic derivation. But in 
any case, it is an Islamist group based in northeast Nigeria 
that seeks to establish Sharia law.
    Over the past decade, Boko Haram has killed thousands, 
attacking Christians, bombing churches, attacking schools, 
police stations, and attacking other Muslims as well.
    The State Department has offered a $7 million reward for 
the capture of one of Boko Haram's top leaders. This is a 
reprehensible organization that has attacked Christians during 
Christmas, at Easter; attacked Muslims who do not join in their 
bloody philosophy.
    Now conflicts between Christians and Muslims of Nigeria are 
not new and preceded the creation of Boko Haram. Even the 1960s 
Civil War involving the attempt to create an independent Biafra 
stem in part from the way Christians were treated, 
particularly, Ibo traders were treated in northern Nigeria.
    In more recent decades, Islamic groups have grown, 
especially in the north. Since the death of Mohammed Yusuf in 
2009, the charismatic leader of Boko Haram, the group has 
split. Another group, Ansaru, announced its existence in 2012. 
The two groups are described as loosely coordinating under a 
joint council. I want to commend the State Department for 
classifying both Boko Haram and Ansaru as terrorist 
organizations. That is to say adding them to the list of the 
foreign terrorist organizations under--and also as especially 
designated global terrorists.
    In September 2011, then commander of AFRICOM, General Ham 
stated that three African terrorist organizations, Shabaab in 
Somalia, al-Qaeda, Islamic Maghreb across the Sahel, and Boko 
Haram have explicitly and publicly voiced an intent to target 
Westerners and especially the United States.
    Now I am going to drift a little bit from the exact subject 
here because our entire national security establishment has 
picked up a new phrase, pivot toward Asia, which sounds like it 
is going to mean more trade delegations to Tokyo and more 
Chinese language courses in our universities. But what I fear 
it really means is deciding that the fight with Islamist 
extremists in Africa and the Middle East is either over or is 
inconvenient. And redirecting all of our national security 
efforts toward confronting China in the South China Sea. 
Already, the Pentagon is shifting is research proposals. They 
are only interested in research that will help them shoot down 
Chinese planes or sink Chinese aircraft carriers.
    Islamic extremism and the problems in North Africa and West 
Asia and all of Africa and the Middle East cannot be ignored 
just because there is a dispute over some islands off the coast 
of China. And pivoting toward Asia sounds to be like trying to 
find a higher technology, more conventional foe for a national 
security establishment that is frustrated by the difficulties 
of dealing with opponents that do not wear uniforms. It is time 
for us to pivot toward Africa, the Middle East and West and 
South Asia where Islamic extremism still poses a threat to the 
United States, notwithstanding bin Laden, and I yield back.
    Mr. Smith. Thank you, Mr. Chairman. I would like to now 
welcome our distinguished Ambassador Linda Thomas-Greenfield, 
just briefly, Ambassador Thomas-Greenfield is a member of the 
career Foreign Service and was sworn in on August 6, 2013 as 
Assistant Secretary for African Affairs. Prior to assuming her 
current position, as Director General she ran or led a team of 
about 400 employees who carried out personnel functions for the 
State Department's 60,000 strong work force. Since beginning 
her Foreign Service career in 1982, she has risen through the 
ranks to the minister consular level. Overseas, she has served 
in Jamaica, Nigeria, The Gambia, Kenya, Pakistan and at the 
U.S. Mission to the U.N. And as a matter of fact, we were just 
reminiscing, of course, I met the Ambassador there when we were 
working on refugee issues and she walked point on those issues 
so much so that in 2000, she got the Warren Christopher Award 
for Outstanding Achievement in Global Affairs in recognition of 
her work on behalf of refugees. She also served as Ambassador 
to Liberia where she served from 2008 to 2012.
    Madam Ambassador, the floor is yours.

 STATEMENT OF THE HONORABLE LINDA THOMAS-GREENFIELD, ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Thomas-Greenfield. Thank you very much. Chairman 
Smith, Chairman Poe, Ranking Member Bass, Ranking Member 
Sherman, other members of the committee, let me thank you for 
this opportunity to update you about our policy in Nigeria and 
specifically on our efforts to help Nigeria counter the threat 
of Boko Haram and other associated violent extremist groups.
    I will provide a full copy of my written testimony so this 
will be somewhat abbreviated so that I leave enough time to 
take questions.
    Chairman Smith and Chairman Poe, instability in Nigeria is 
of direct concern to the United States. Nigeria is one of our 
most important partners in Africa. It is home to an estimated 
170 million people, making it the most populous country in 
Africa and the seventh most populous country in the world. 
Nigeria has the 22nd fastest-growing economy in the world, the 
13th largest supply of oil to the global market, and the second 
largest destination for U.S. private investment in Africa. 
Nigeria is also the second largest Africa contributor to U.N. 
peacekeeping operations around the world, not just in Africa, 
but around the world, and we welcome Nigeria's participation on 
the U.N. Security Council beginning in January.
    The significant mutual interests we share with Nigeria have 
led us to build a robust, bilateral relationship which we have 
deepened and broadened through the U.S.-Nigeria Binational 
Commission. We meet regularly with senior Nigerian officials. 
President Obama met with President Jonathan in New York in 
September on the margins of the U.N. General Assembly. Under 
Secretary Sherman led a large interagency U.S. delegation to 
Abuja in mid-August to discuss civilian security with senior 
Nigerian civilian and military leaders, including President 
Jonathan and National Security Advisor Dasuki. I will be 
traveling myself to Nigeria in December and hope to have 
meetings at those same levels.
    Additionally, I would like to thank you, Congressman Smith 
for your visit to Nigeria in September to meet with Nigerians 
affected by Boko Haram's violence. It is through these 
engagements, ours and yours, that we are able to translate our 
partnership into mutual action to advance opportunities and 
address threats that Boko Haram poses.
    Boko Haram and associated violent extremist groups, such as 
the faction known as Ansaru, that you all described in so much 
detail to us, pose a threat to Nigeria's stability. These 
groups attack the Nigerian Government. They attack the 
military. They attack ordinary citizens of all walks of life, 
including numerous Christians, but even a greater number of 
Muslims. Their actions have increased tensions between ethnic 
communities. It has interrupted development, frightened 
investors, and alarmed Nigeria's neighbors. Boko Haram and 
associated groups can strike Nigeria's neighbors and it targets 
foreigners. Their unspeakable violence has killed too many 
Nigerians to even count, as we saw during September, when 
attackers in Benisheikh shot more than 160 people and in Yobe, 
where you described earlier, more than fifty innocent students 
lost their lives.
    In August 2011, a suicide bomber from Boko Haram attacked 
the United Nations headquarters in Nigeria's capital Abuja. And 
on February 19 of this year, Boko Haram kidnapped seven French 
tourists in Cameroon. And although Boko Haram has directed most 
of its violence and rhetoric at Nigerian targets reports of 
linkages between Boko Haram and al-Qaeda in the Islamic 
Maghreb, or AQIM, are very worrisome for us as well as for the 
Nigerians.
    Boko Haram's violence comes at a time of uncertainty and 
tension for Nigeria. Preparations for the country's 2015 
elections have already begun, and political realignments are 
adding to existing tensions. In the oil-producing Niger Delta 
region, thieves steal at least 100,000 barrels of oil per day 
and perhaps much more. This theft reduces government revenues, 
fuels corruption and international crime, and contributes to 
environmental degradation. Corruption hinders the country's 
efforts to enforce the rule of law, to attract investment, and 
expand infrastructure. Good governance, healthy political 
competition, equitable economic growth would go a long way to 
address all of these challenges. And the strategy of countering 
Boko Haram should be, in other words, holistic. The government 
needs not only to stop Boko Haram's attacks, but address 
longstanding grievances of law-abiding northern Nigerians about 
government corruption and unfairness that attracts disaffected 
youth to Boko Haram.
    Military and law enforcement efforts are necessary, but 
they alone are insufficient to counter the threat posed by Boko 
Haram and associated violent extremist groups. In the long run, 
reducing Boko Haram's ability to recruit is just as important 
as degrading its capabilities. Nigeria must protect civilians. 
It must guarantee human rights, and ensure accountability in 
instances where government officials and security forces 
violate those rights. Nigeria must demonstrate to all Nigerians 
that government can be and must be the sole, trusted arbiter of 
justice in the country.
    The United States is committed to helping the Nigerian 
Government and people counter the threat of Boko Haram. In June 
2012, the State Department designated Boko Haram's top 
commander as specially designated global terrorist under 
Section 1(b) of Executive Order 13224. In June 2013, the State 
Department added Abubakar Shekau, Boko Haram's official leader, 
to our Rewards for Justice Program. I am pleased also to 
announce that the United States has taken additional steps to 
counter the threat posed by Boko Haram and Ansaru. Earlier 
today, the State Department designated both as foreign 
terrorist organizations under Section 219 of the Immigration 
and Nationality Act, as amended, and especially Designated 
Global Terrorists under Section 1(b) of Executive Order 13224. 
We took this step after very careful consideration and I know 
you think it was too long, but we did make sure that we got it 
right. We anticipate that this designation will empower U.S. 
law enforcement and the Treasury Department with additional 
tools to pursue these violent extremist organizations. We 
believe this designation is an important and appropriate step, 
but again, it is only one tool in what we believe must be a 
comprehensive approach toward addressing the Boko Haram threat.
    We are committed to assisting Nigeria in bolstering its law 
enforcement capabilities and ultimately in shifting to what we 
believe should be an integrated, civilian security-focused 
strategy to counter Boko Haram and Ansaru in a manner that 
adheres to the rule of law and ensures accountability and 
diminishes the ability of Boko Haram's appeal and legitimacy to 
civilian populations.
    The United States recognizes that the Nigerian Government 
and security forces face a difficult challenge in countering 
the Boko Haram insurgency. Both ordinary citizens and security 
forces have suffered. Still, we are concerned by reports that 
some Nigerian security forces have committed gross human rights 
violations in response to Boko Haram. Not only because their 
approach is wrong, but because it is counterproductive. We have 
raised this concern with the Government of Nigeria at the 
highest levels. And while northern Nigerians, Muslims and 
Christians alike, largely reject Boko Haram's vision and 
violence, Boko Haram has exploited local resentment of these 
violations and other long-standing grievances against the 
central government to attract recruits.
    Nigeria's prosperity and stability matter to all of Africa. 
The United States is committed to several Presidential 
initiatives in partnership with Nigeria, including the Young 
African Leaders Initiative and Power Africa, as well as 
significant programs in the areas of health, education, and 
economic growth. Nigeria's success is important to us. We must 
continue to help our Nigerian partners develop an effective, 
multi-faceted strategy toward Boko Haram. Overcoming the 
challenges posed by Boko Haram will not be easy and we know 
that, but we do believe it is possible. We appreciate all of 
your efforts here in Congress. We appreciate your interest in 
this issue and we are ready to work with you, as well as with 
the government and people of Nigeria in the months ahead to 
work against this threat. I look forward to your questions. 
Thank you very much.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Mr. Smith. Thank you very much, Madam Ambassador.
    Mr. Sherman. There is a vote on the floor.
    Mr. Smith. I know. We do have a series of votes, but I 
thought we would start some of the questions and I do hope your 
time permits you because I know many members do have very 
significant questions so I thank you for that and for our other 
witnesses as well, for your patience.
    Let me begin the questioning. First, thank you for the 
designation of FTO. I think that is monumental, it is historic, 
and it is absolutely warranted. I remember in July 2012 asking 
Ambassador Carson a number of questions and there was a great 
deal of resistance. As a matter of fact, he said that the bulk 
of the organization, we believe to be mainly aimed at going 
after Nigerians and that is not good either, of course, but 
they certainly have shown that they meet the criteria; this is 
absolutely well deserved and hopefully will make a difference.
    You might want to for the committee and for all, maybe to 
delineate as to what that actually means. Meeting with Members 
of the Congress, House and Senate in Abuja, as well as here, 
when they visited, some thought it might be a mark, a bad mark 
against the country of Nigeria and I and others tried to say, 
no, this is only targeted at a group of terrorists and thugs 
who are murdering people inside as well as those who are 
visiting in Nigeria, that is to say, Boko Haram is doing that. 
So what is actually the positiveness of that designation?
    Secondly, your view of Goodluck Jonathan's military efforts 
to contain, combat, and hopefully end this terrible scourge in 
Nigeria, Boko Haram. The Leahy amendment, as we all know, is 
all about vetting and human rights criteria, but if you could 
speak to whether or not you believe there needs to be a 
revisiting of at least its application, which can become 
counterproductive. Whole groups are being disqualified simply 
because of a concern that it might now comport with the Leahy 
amendment and it seems to me that needs to be looked at very 
carefully. Don't ever, obviously, enable a human rights abuser, 
but when it gets in the way of good, solid training forces who 
could be more efficacious on the battlefield, but also be very 
pro-human rights, it seems to me that that is both in Nigeria's 
as well as our best interest.
    And finally, on the issue of the persecution of Christians, 
I met with a group of Christians in Jos who were refugees, 
IDPs, and they said that their homes were actually marked in 
kind of a perverse reversal of the Passover and it said 
``infidel'' on the top of their doors and that night Boko Haram 
wielding AK-47s, individuals, came and killed people. Some got 
out, others did not. And again, as I mentioned, one of our 
witnesses, Mr. Adamu, when I heard his story, I was in tears. I 
am not moved to tears easily, but I welled up with tears as he 
talked about his faith as a Christian, as they blew his face 
away and left him for dead, right in front of his dear wife, 
who was sobbing, but rather than convert, he stood up. That 
kind of atrocity against Christians or anyone, obviously, is 
unconscionable. If you could speak to that as well, those two 
questions.
    Ambassador Thomas-Greenfield. Thank you. Let me start with 
your first question, what does the designation mean? I have to 
tell you that we got a very positive response when we informed 
the Nigerians that we had made the decision to designate. It 
sends a strong message to the people of Nigeria that we feel 
their pain and that we understand what is going on in Nigeria. 
And the message has been very, very positive from the Nigeria 
front.
    The designation gives us some additional tools for 
providing support to the Nigerians particularly, through 
Treasury, putting holds on bank accounts and movements of cash, 
but also in terms of our ability to provide additional support 
to Nigeria and to countries in the regions to help them fight 
Boko Haram. Nigeria itself declared Boko Haram a terrorist 
organization earlier this year. The UK has done the same and 
now we have joined them and I am pleased that that has 
happened.
    In terms of the government's effort, we know that the 
Nigerian Government has a tough job responding to this crisis. 
And as I said in my testimony, they have not always gotten it 
right. They have been particularly heavy handed in the 
response. I think with the hope and desire that they will bring 
this to an end quickly. It has not come to an end quickly and 
some of the Nigerian military forces in their heavy-handed use 
of force have committed some human rights violations that we 
have raised with the government and because of that, some of 
their troops have been under Leahy, not allowed to get training 
in the United States or provided by the United States.
    So we are hopeful that through our continued work with the 
government we can help them address some of their approach so 
that the violations are not continued. We are encouraging them 
to allow international organizations and local NGOs to go into 
some of the detention centers to help them. And we are 
encouraging them not to do anything that would turn the people 
of the north against them. And we are hopeful that in the 
coming weeks in our visits and discussions with the government 
that we will be able to help them address some of these issues.
    In terms of the persecution of Christians, the news on that 
front, we have all seen it. We all feel it. And we are all 
really disgusted by it. I would add that in addition the Boko 
Haram is a terrorist organization. And terrorist organizations 
harm everyone and they have killed, as they have killed 
Christians in the name of Islam, they have also killed Muslims 
in the name of Islam. And I make that point because their 
victims are across the board. It is women and children. It is 
government officials. It is civilians. It is Nigerians. It is 
across the border in Niger, in Cameroon. It is French citizens 
being kidnapped. So while they do have a religious bent to what 
they do, they are nondiscriminating in their attacks on people. 
And what that means is we have to work to stop this.
    Mr. Smith. But I think you would agree that there has been 
absolutely disproportionate focus on Christians. As a matter of 
fact, Mr. Emmanuel Ogebe, who is the managing partner of U.S.-
Nigeria Law Group, has been critical of the State Department, 
and I would agree, for downplaying the religious nature of 
this. And I, too, believe and know that Muslims are targeted. 
No doubt about it. But it is usually when they speak out 
against Boko Haram. But Christians are targeted simply because 
of their faith. So you would agree with that?
    Ambassador Thomas-Greenfield. Yes, sir.
    Mr. Smith. Thank you. We will stand in brief recess. There 
are three votes, an interim, and then two more votes, but we 
will come back during that interim and it will be in about 15 
to 20 minutes. Thank you for patience.
    Ambassador Thomas-Greenfield. Thank you.
    [Off the record.]
    Mr. Smith. The subcommittees will resume their hearing and 
their seating. And again, I apologize to all of our witnesses 
and to you, Madam Ambassador, for that lengthy series of votes, 
but I now yield to the distinguished chairman, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for being here. 
I am not always one who gives kudos to the State Department, 
but I think you are doing a great job representing the 
interests of the United States. That is my opinion.
    I have a few questions, of course. The Nigerian military, I 
just need your opinion, do they have the capability right now 
to defeat Boko Haram?
    Ambassador Thomas-Greenfield. That is a tough question. I 
think the Nigerian military has the capability to defeat Boko 
Haram. I think that they could use some support. It is a 
challenging job and one that we are prepared to help them with 
in terms of providing them with additional training, 
particularly in providing them with--and not just the military, 
with other security forces, with providing them with forensic 
support, investigation support, and other types of support. We 
think that their approach, again, has been somewhat heavy 
handed, I think, in an effort to bring this to closure quickly. 
And we have tried to work with them to help them address that 
issue. But it is not just a security issue. It is also an issue 
that requires the Nigerian Government to deal with some of the 
social and economic issues that exist in the north that has 
attracted people to Boko Haram. So being able to provide 
infrastructure, schools, the availability of healthcare, 
dealing with issues of corruption, all of those things go hand 
in hand with addressing the security issues that they are 
trying to deal with.
    Mr. Poe. Are we looking at a situation where the country 
may end up being a failed state because of the activities of 
Boko Haram? It seems like to me they promote anarchy. They want 
anarchy. They want people to live in fear and then you have the 
corruption with the government. Is that what the world has 
foreseen in Nigeria?
    Ambassador Thomas-Greenfield. I tend to be more optimistic. 
Nigeria is a huge country. It is a complex country. It is a 
country with tremendous diversity. I don't think Boko Haram has 
the power to make Nigeria into a failed state. There are lots 
of other elements that could contribute to that. Boko Haram 
will make Nigeria, particularly in the north, difficult to 
govern. Boko Haram will present challenges to security. It 
presents challenges to individuals who want to invest. It 
presents challenges to private American citizens who want to 
visit because we do have a travel warning out because of the 
activities of Boko Haram. But I don't think Boko Haram has the 
power to make Nigeria into a failed state.
    Mr. Poe. I have two more questions. On a related topic, 
there are many terrorist organizations, several that have been 
designated as foreign terrorist organizations. Do you have any 
information that Hezbollah or the Iranian Revolutionary Guards 
Corps is active in Nigeria?
    Ambassador Thomas-Greenfield. I don't have any information 
on those two organizations. I can go back and look at what we 
have and get an answer back to you. We do believe that Boko 
Haram has links to al-Qaeda. We think they have links to al-
Shabaab. And we certainly think that they use the ideology of 
these organizations to support their efforts in Nigeria. But I 
have not seen anything to indicate that they have connections 
to Hezbollah or to Iran.
Written Response Received from the Honorable Linda Thomas-Greenfield to 
       Question Asked During the Hearing by the Honorable Ted Poe
    We believe that it is highly unlikely that Boko Haram has any ties 
to Shia extremist organizations in Nigeria. We remain concerned about 
Hezballah and Iran attempting to extend influence in Africa by seeking 
support among sympathetic populations in Nigeria and elsewhere. We will 
continue to monitor potential nefarious activity in Nigeria and are 
following closely the May 2013 arrests and subsequent prosecution of 
the alleged Hezballah members in Nigeria.

    Mr. Poe. My understanding is they get their money from 
kidnapping, holding people for ransom, take over a little town 
and tax the citizens of the town, have protection rackets. They 
are involved in smuggling and anything else illegal they can 
think of. Will the designation of being an FTO, how will that 
affect the influx of money which is what they do, all that 
outlawry is what I call it. I am from Texas, so we call them 
outlaws. How will that affect, if it does, the money flow going 
to Boko Haram?
    Ambassador Thomas-Greenfield. I think the designation does 
give us some tools to track money that is going to Boko Haram. 
I doubt that their money is being put in legal instruments, so 
they generally get most of their funding through illegal means, 
through kidnappings, through other criminal activities. They 
certainly have had an impact on trade and the movement of goods 
in the north and probably have gotten some advantages from 
that. Again, I think it is through those activities that they 
have been able to fund their operations.
    Mr. Poe. Last question. What is your understanding as to 
the numbers? How many people are we talking about that consider 
themselves aligned with Boko Haram being their soldiers, their 
killers, whatever you want to call them? How many would you 
guess or estimate?
    Ambassador Thomas-Greenfield. Thank you for that question. 
And it is a question that I asked as I was preparing for this 
hearing. We don't have a real fix on what the numbers are. We 
think that the core of Boko Haram is not large, somewhere in 
the hundreds to thousands. But not in the tens of thousands, in 
the mid thousands. We think there are people who are 
sympathetic to Boko Haram in some of the communities they 
operate in, but an actual fix on the exact numbers, we are just 
not sure of.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Chairman Poe. Just a few 
final questions if I could, then hopefully others will return. 
If you could speak to, one of the things I noticed when Mr. 
Simpkins and I were in Jos was that the number of IDPs, 91 
families that were housed in what looked like an old apartment 
or motel building, very cramped, very threadbare for any of the 
essentials that even in a refugee camp somebody might expect. I 
was struck by what seemed to be a lack of any resources for 
them either by the government or by the international community 
including USAID.
    And I am wondering in his testimony, Mr. Ogebe, Emmanuel 
Ogebe, points out and this is his quote:

        ``U.S. has lagged behind in humanitarian assistance and 
        has not provided anything to the victims of Boko Haram 
        terrorism or crisis. Even less is said to the Federal 
        Government about providing victim assistance.''

    What is your understanding as to what we are doing for 
those victims? I met with them. The kids all crowded around. 
They were desperate. They looked healthy, but thin. I am 
certainly frightened and again that is where we met one of our 
witnesses who will be talking or testifying a little bit later, 
Mr. Adamu, who told that story about being shot and being left 
for dead. Are we assisting?
    Ambassador Thomas-Greenfield. I think, as you know, 
Congressman, the U.S. is the largest contributor for 
humanitarian assistance worldwide, not just in the case of 
Nigeria. So we are assisting through international 
organizations, through NGOs, through our contributions. 
Unfortunately, our own presence is hampered by the security 
situation. We are not getting our people up to the North in a 
significant way. And I have heard just that, that people in the 
north are not seeing us. We had hoped to open a consulate in 
Kano. We actually had support for moving forward on that. We 
had staff identified, but because of security, we were not able 
to put them there. We have a small American Corners there, but 
again, we are not getting our people out there in a significant 
way.
    We have one political officer and a public affairs officer 
based in Abuja and we are hoping that they can get out more and 
hoping that we can get more actual face on the ground in those 
regions so that people know we are there. They know we care. 
And they see the assistance that is coming through. But a lot 
of our assistance does not have our flag on it because we are 
going through international organizations.
    Mr. Smith. If you could, one, take back, the Jubilee 
Campaign was actually helping the people and those 91 refugees. 
And again their resources are tight. Any help from any of the 
faith-based groups? We actually met with a remarkable 
archbishop, Kaigama, who works side by side with the Muslim 
leadership in Jos. I mean it really was remarkable to see the 
kinds of things they are doing together to say that this is not 
Islam, and the Christians can work side by side with people of 
different faiths.
    Ambassador Thomas-Greenfield. I will definitely take that 
back.
    Mr. Smith. But he did tell us when we were meeting with him 
that he had a robust program to help AIDS orphans and it was 
canceled and could not get a good answer as to why, so I raised 
that when I went back to the Embassy. They didn't know and I 
still don't know. So if you could get that for us.
    Ambassador Thomas-Greenfield. We will follow up and get 
that answer.
Written Response Received from the Honorable Linda Thomas-Greenfield to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    The Centers for Disease Control (CDC) funded the Jos Catholic 
Archdiocese through a local partner organization, the AIDS Prevention 
Initiative in Nigeria (APIN). APIN's Community-Based Care and Support 
program finished on July 31, 2013. In October, another CDC partner--the 
Catholic organization Caritas--took over funding programs in the 
Archdiocese. So the program is once again being supported, although at 
a lower level than previously due to budget constraints.

    Mr. Smith. They had scores of AIDS orphans this faith-based 
organization was caring for that he has--they are going to 
somehow cobble together an assistance for them, basically. They 
don't have the money and they were getting it from us.
    And I did ask a question and this is another take back, but 
I am a great believer, particularly in places like Nigeria 
where faith-based is so integral to the delivery of healthcare 
and other services. I asked how much of the PEPFAR money is 
being used or meted out to faith-based and I was told under 10 
percent which I think is shocking. That needs to be turned 
around. And a day later, I am actually sitting with an 
archbishop outside of Abuja and he tells me how his program was 
cut and that was obviously a faith-based. And of course, they 
deal with all comers, Muslim, anyone who needs help as an 
orphan gets it. There is no test of faith for that kind of 
service. So I would ask if you could get back to us. That was 
very disconcerting.
    Ambassador Thomas-Greenfield. Thank you for bringing it to 
my attention. We will get back to you with an answer.
Written Response Received from the Honorable Linda Thomas-Greenfield to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    The U.S. Government PEPFAR team awards cooperative agreements, 
grants and contracts through full and open competition. Selection of 
current implementing partners was done through a competitive process. 
While 10% of the President's Emergency Program for AIDS Relief 
(PEPFAR)-funded activities in Nigeria are with faith-based 
organizations, the U.S. Government PEPFAR team in no way limits its 
engagement with faith-based organizations to a particular percentage or 
funding level.

    Mr. Smith. Let me just ask about child soldiers and Boko 
Haram and Ansaru. Do they coerce children to become soldiers 
and to what extent?
    Ambassador Thomas-Greenfield. We do have information to 
indicate that they are recruiting child soldiers. In terms of 
the fact that many young, particularly young men who are not in 
any formal education program go into some of the schools that 
are there that take them from their families and they are 
raised in these schools and they are used to go out in the 
streets to beg and they spend a lot of time getting inculcated 
with the ideas of Boko Haram. And we do know that they have 
used children in their efforts.
    Mr. Smith. The link of Boko Haram and Ansaru to other 
terrorist organizations, are you at liberty to----
    Ambassador Thomas-Greenfield. I am sorry. I didn't hear 
your question.
    Mr. Smith. Any links of Boko Haram and Ansaru to other 
terrorist organizations?
    Ambassador Thomas-Greenfield. As I said earlier, we do 
think that they do have links to AQIM. They certainly use their 
ideology, they use their operational plans and we know that 
they have done some training, particularly in Mali and in other 
areas, so the links are there. How close those links are, I 
can't discuss, but I think we are worried and concerned about 
those connections.
    Mr. Smith. Chairman Poe.
    Mr. Poe. I understand that the Leahy Law prevents us from 
training the Nigerian military in the north. Is that your 
understanding?
    Ambassador Thomas-Greenfield. All of those units that have 
been connected with human rights violations in the north have 
been, because of Leahy barred from any training by the U.S. 
Government, so that is correct.
    Mr. Poe. Does that include all of the military or just 
specific units of the Nigerian military?
    Ambassador Thomas-Greenfield. Those units that have been 
connected to human rights violations and I don't think at this 
point it is all the units, but I don't know that answer. I can 
get back to you on that.
Written Response Received from the Honorable Linda Thomas-Greenfield to 
       Question Asked During the Hearing by the Honorable Ted Poe
    Assistance is withheld when the vetting process uncovers credible 
information that an individual or unit has committed a gross violation 
of human rights. We continue to provide assistance to other individuals 
and units of the Nigerian military.

    Mr. Poe. I would appreciate it if you get back to us and 
also more legalese about the Leahy Law and how it does apply or 
does not apply in this specific situation with the Nigeria 
military
    Thank you, Mr. Chairman.
    Mr. Smith. I, too, would raise that as well. I understand 
the abundance of caution and that is prudent, but again, if we 
were in the position of training with human rights training, 
but also to be more effective, I think the Nigerian forces, 
some of the skills that might be imparted to them could make a 
huge difference.
    I do want to thank Megan Ahearn who was our Foreign Service 
officer when Greg and I were in Nigeria. She was absolutely 
professional, effective, nonplused when our schedule changed by 
the minute and the Embassy was very supportive of the entire 
effort and the DCM Maria Brewer was also, even though she is 
relatively new there coming from a different posting, provided 
every courtesy and I am deeply appreciative of that as well.
    Ambassador Thomas-Greenfield. I will pass that on to her 
and I know it is a tough job because I have been your control 
officer before and you work really hard and we know that when 
you are coming, we have to be prepared for you. So to get that 
kind of kudos from you is really, really wonderful. So thank 
you.
    Mr. Smith. I know even the trip we made to Jos, they did 
not leave a single stone unturned in making it work in a safe 
way, but also a way that maximized every moment, so I want to 
thank her.
    Ambassador Thomas-Greenfield. Thank you.
    Mr. Smith. That would be Megan Ahearn.
    Ambassador Thomas-Greenfield. Thank you very much.
    Mr. Smith. Thank you, Madam Ambassador. I now would like to 
welcome to the witness table our second panel beginning with 
Mr. Emmanuel Obege who is an experienced attorney specializing 
in international matters, focusing on Nigeria. Exiled to the 
U.S. after becoming a political detainee during the brutal 
years of Nigeria's military dictatorship, Mr. Obege has played 
a role in shaping U.S. policy toward Nigeria and his quest for 
a more robust democracy. He has experience in managing, 
designing, and implementing complex international programs and 
projects in Nigeria. He presently is practicing as a legal 
consultant in Nigeria with the Washington, DC, bar and he holds 
the distinction of being the first specialist on Nigeria out of 
100,000 lawyers licensed in Washington, DC.
    Then Mr. Habila Adamu is from Yobe State in northern 
Nigeria and has experienced the brutality of Boko Haram 
himself. Unlike many others, he survived and fortunately he is 
able to be here to tell us about it today. Greg Simpkins and I 
met with him when we were traveling in Nigeria 2 months ago and 
I and all of us were deeply touched by his story. I believe his 
experience is emblematic of the experience of many Christians 
who are victimized by Boko Haram and his determination is a 
testament to his faith.
    We will then hear from Mr. Jacob Zenn who is an expert on 
northern Nigerian security and a consultant on countering 
violent extremism. He is the author of the book, Northern 
Nigeria's Boko Haram, the Price in al-Qaeda's Africa Strategy, 
published in 2012 and based on his field work in Boko Haram's 
main area of operations in northern Nigeria, northern Cameroon, 
Chad, and southern Niger. He has briefed many officials with 
different governments and served as a policy advisor to the 
Nigerian-American Leadership Council which works with the 
Nigerian diaspora, U.S. Government, think tanks, and civic 
organizations to counter radicalization and to promote 
accountability.
    Finally, we will hear from Dr. Guy Nzeribe who is an 
independent Africa-focused policy analyst with expertise in 
sectarian conflicts and terrorism in the southern Sahel zone 
and Nigeria. He is also an alumnus of the U.S. Defense 
Department's National Security Education Program at Georgetown 
University. Professionally, he has over 20 years of experience 
in politics, industry, and academia. He has worked in 
investment banking, consulting, technology, and is an 
international trade specialist. He is also a former college 
professor whose area of research and teaching focused on 
technology, management, and organizational change.
    Mr. Ogebe.

STATEMENT OF MR. EMMANUEL OGEBE, MANAGING PARTNER, U.S.-NIGERIA 
                           LAW GROUP

    Mr. Ogebe. Chairman Smith, I would like to thank you very 
much for hosting us today. I want to especially commend you for 
the courage in coming out to Nigeria. During your trip I 
learned that the security levels for Nigeria for U.S. 
dignitaries is equivalent to the levels for Iraq and for you to 
come out like that was really commendable.
    Chairman Poe, I want to also thank you very much for co-
hosting this session. I do want to say that in Nigeria, like in 
Texas, we still do outlaws. We call them outlaws and Boko Haram 
has been outlawed in Nigeria as well.
    I want to say that I feel that Christmas came early for me 
today because the Secretary has done what was on my wish list a 
year ago. And she has taken the wind out of the sails of my 
presentation and so I will just make a few remarks.
    The first thing is I would like to say for the last 3 
years, we have been working aggressively to document what I 
call a ``pre-genocide'' in Nigeria. And this is what it looks 
like. Deborah Shatima had Boko Haram members come to her home. 
They shot her husband to death in front of her and when they 
were leaving, they abducted her seven and 9-year-old daughters 
and went away with them. Now this is horrific for any parent, 
but there is more. They came back 3 months later and said have 
you converted to Islam? She said no. And then they shot her 
remaining son and his friend and killed them.
    Gentlemen, that is what terror looks like. Deborah Shatima 
has lived and known that terror for over a year now and while I 
am gratified that the State Department suddenly recognizes 
today that this is a foreign terrorist organization, we are 
concerned that it took them too long. However, we do want to 
give credit to this committee because we believe that the bill 
that you wrote finally nudged them to do the right thing.
    Mr. Chairman, if I may, let me mention what the new face of 
Boko Haram terrorism looks like. While I was in Nigeria, 
shortly after you left, Boko Haram conducted a roadside 
massacre. And here is what they did. In Damaturu, only 5 out of 
77 churches in that town remain open because Boko Haram has 
been attacking churches in such a massive manner. And many 
parts of Yobe State have been de-Christianized with Boko Haram 
exterminating vast neighborhoods by killing Christians from 
house to house, forcing massive population displacements.
    This year, Boko Haram is now wiping out Christians in rural 
villages in Borno and burning the homes of those who have fled. 
Thousands are now refugees in Cameroon as we saw in our first-
hand visit to the border of Cameroon. In fulfillment of a 
stated objective to eliminate Christians in northern Nigeria, 
Boko Haram has done significantly well since last year when it 
ordered Christians out. In Goza, Boko Haram has established 
camps in caves and mountains replicating the model of the 
Taliban of Afghanistan. Miles from our hotel, two churches were 
burned and the father of a gentleman we were interviewing was 
killed.
    Deborah Shatima, as I mentioned, is still remaining, one of 
the few Christians remaining there. We have tried to move her 
out of there, but she still is remaining in the hope that her 
two girls who are now ten and eight might come home one day.
    I want to say that with regard to the testimony of the 
Assistant Secretary who just spoke, there has been an 
improvement from the testimony last year. She has conceded that 
Boko Haram actually persecutes Christians, but she has again 
continued with this narrative that is not supported by the 
facts that more Muslims than Christians were killed. We are not 
interested in a game of numbers, but this is highly insensitive 
to the victims when the U.S. puts out gratuitous statements 
like that that are not reflective of what is going on on the 
ground. Considering that the United States has the largest 
political section in the African continent in Abuja, it is our 
hope that with the new personnel change there will be better 
reporting of the facts.
    I want to mention again this so-called argument that it is 
economics that drives this brutality. The U.S. seems oblivious 
of the strong anti-American sentiment in much of the north 
where the U.S. liberation of Kuwait was riddled with riots as 
well as U.S. support for Israel amongst many other issues. 
After 9/11 bin Laden posters flooded northern Nigeria. A decade 
ago, I visited a northern community devastated by flooding. The 
U.S. and Nigerian Government built 400 free houses for the 
community. When I went to visit the houses, I saw northern kids 
wearing Osama bin Laden hats. So it is shocking for me to hear 
U.S. diplomacy that extremism is Nigeria driven by local 
factors, when clearly there is a tie-in to global jihad and 
even to U.S. policy.
    Let me mention that while Egypt is America's most strategic 
geopolitical partner in North Africa, Nigeria is its foremost 
ally in sub-Saharan Africa. Nigeria has consistently brokered 
peace deals and rolled back coups in Africa. While Egypt's 
stabilization is aid-based and predicated on a balancing act, 
Nigeria's regional security role is largely self-propelled.
    So for a partner such as this that the U.S. relies on to be 
boots on the ground in northern Mali, in Liberia, and so on and 
so forth, is somewhat disconcerting for the U.S. to be so 
critical of the Nigerian military. True, there are human rights 
abuses and I, as someone who was detained and tortured by the 
Nigerian Army during the rule of General Abacha, would not be 
the first person to speak on their behalf. But the fact of the 
matter is that if there was no state of emergency and if the 
troops did not go in, what is happening in Nigeria now would be 
far worse than what Boko Haram did last year.
    Because many churches have been closed down and because the 
Nigerian Government is protecting a lot of these areas, here is 
what Boko Haram did in September while I was in Nigeria the 
week that you arrived, a few days before you arrived. They 
blocked a highway and they began to kill people from car to 
car. They killed about 170 people that day. Here is what Boko 
Haram did. They asked them their names and they used their ID 
cards to ensure that their names tallied with the names they 
gave. So that if you gave a Muslim name and they checked your 
ID card and it wasn't a Muslim name, they would identify you as 
a Christian and kill you. They killed 152 Christians that day. 
They used chain saws to behead people. Now it was not only 
Christians they killed. There were about 19 Muslims who had 
government-issued ID cards. So if you worked for a local 
government or a state government or authority or security 
operatives you would also be killed if you were a Muslim. The 
few Muslims who did not have ID cards, they were abducted by 
Boko Haram and taken away. We rescued a woman who escaped from 
a Boko Haram camp and I was curious why are they abducting 
these people and she told us that the Muslim abductees are 
taken to the camps and then they are trained and forcefully 
conscripted to become terrorists.
    I say this to say that it is clear therefore that there are 
many Muslims who are not supportive or sympathetic to Boko 
Haram, but they are being intimidated by the terrorist antics 
of this group. We all know the truism that all it takes for 
evil to triumph is for good men to do nothing. And we have 
today come to a point where the U.S. has finally decided to do 
something.
    I want to point out that there are some fighters of Boko 
Haram who are incentivized by two things. They were given 
transport money, as little as $30, to go and undertake jihad 
and they went to a church and they killed people, but they were 
always told that you are doing the work of Allah. So we see 
clearly a pattern that there are people who will take that 
little bribe to go out and do jihad. But then there are other 
people who are not interested in the bribe, but who are 
abducted and taken to those camps and made into terrorists. 
This story illustrates to my mind that it is not economics that 
is driving this. It is a warped theology.
    And so when the administration implies that somehow it is 
the actions of the government that is causing this, it is 
highly misleading. I will point out that the north has been 
backward for a very long time, even under British colonial 
rule. So it is not overnight that you can pin it down to the 
current administration. Let me say that what is worrisome to me 
as an individual is that when 9/11 occurred, the whole world 
with one voice said this is unconscionable. Even in Iran, 
people protested and held vigils in sympathy with the United 
States. No one wanted to ask whether the U.S. fueled that 
situation by supporting bin Laden many years ago. That was not 
the time to ask that kind of question. We recognized evil for 
what it was and we stood up as one race to denounce it.
    And then in Nigeria, terrorists do these atrocious deeds 
and all of a sudden we begin to psychoanalyze and say oh, this 
must be because of poverty. As you said so eloquently last 
time, that is an insult to poor people. There is no legitimate 
grievance on the planet that would encourage anyone to take a 
chain saw and cut off the head of an innocent person who is 
struggling to go on and make a phone call to his mother because 
he couldn't get a phone call signal in his state. And this is 
why it is my hope that as the U.S. cooperates with Nigeria 
more, they will encourage the Nigerian authorities to switch 
back the telecommunication systems in Borno State.
    Let me just say that there is still a little work to be 
done. We have talked about the humanitarian assistance. The 
U.S. is spending a lot of money on interfaith dialogue when 
this is not an interfaith issue. This is a radicalization issue 
and we should be looking at either of two things, either a de-
radicalization program for these people who are killing 
Christians as well as Muslims who are critical of them, or we 
should be looking at humanitarian assistance for victims so 
that desperate people do not feel the need to fight back.
    I will also mention at this time that it is important for 
technical assistance for the Nigerian military because the U.S. 
has been down the same path that Nigeria is now going down, 
fighting an insurgency in Afghanistan. Boko Haram is modeled 
after the Taliban and I believe that there are lots of lessons 
learned that the United States can share with the Nigerian 
Army.
    So as I said, they took the wind out of my sails. There is 
not very much more I can say. I will say in conclusion that 
this is not about a threat to America. The threat has gone 
beyond the mere threat. I was in Abuja the day that Boko Haram 
bombed the United Nations building and my friend, an American 
lawyer, was in that building when it was bombed. When it 
occurred, I phoned her because I was a meant to be in that 
building that day. And I hear my friend coughing in the smoke-
filled building. She had not yet been rescued. To this day I 
have not heard one word from the United States Embassy about my 
friend who was in that building.
    In addition to that, I later on learned that there was an 
American diplomat in that building when it was bombed. And so 
it concerns me that this is not a theoretical issue. This is 
practical. Boko Haram has killed people from Italy, from 
Germany, from France, and other numerous locations, about 15 
countries at last count. Is it simply because my friend did not 
die that day that it has taken us so long to recognize Boko 
Haram as an FTO.
    I thank you very much for inviting me to speak to you 
today. Thank you.
    [The prepared statement of Mr. Ogebe follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Ogebe, thank you very much for your 
testimony, your extraordinary leadership because I think you 
have been a consistent voice and certainly have been helpful to 
this subcommittee for years, so I do thank you for that and for 
the stories that you have recounted just a moment ago.
    Mr. Ogebe. If I may, sir, I submit my written testimony for 
the record.
    Mr. Smith. Without objection, it will and any information 
you would like to attach to it, documents of whatever kind will 
be made a part of the record.
    Mr. Adamu, please proceed.

  STATEMENT OF MR. HABILA ADAMU, SURVIVOR OF VIOLENCE BY BOKO 
                             HARAM

    Mr. Adamu. Chairman Smith, Members of the Congress, it is a 
great opportunity for me to be here to testify on behalf of all 
wounded Christians, persecuted Christians, widows, and orphans 
of Nigeria.
    My name is Habila Adamu. I am from Yobe, in the northern 
part of Nigeria. On 28 November, gunmen came to my house around 
11 p.m. and confronted me with my family. I thought they were 
Nigerian Army patrol. When I opened the door of my sitting 
room, I am shocked when I see them. I went back. Now my wife 
moved forward in order to beg them not to kill me, to leave me 
a life. She offered them money. They collected the money and 
our cell phones. The leader told my wife that they are there to 
do the work of Allah. When I heard that, I know that that day I 
would see my Lord. I prayed a short prayer. I said, ``Lord, I 
am a sinner. Here I am. I cannot save myself. Lord, forgive me. 
I write my name in the Book of Life. Save my soul, Lord.'' When 
I prayed, I move forward because they were there for me. The 
leader asked me ``Habila, can we get the key of the door'' 
because I am in my sitting room. I gave them the key of the 
main door. They opened the door. I know two people came inside, 
making four into my home, with AK-47s.
    They asked my name and I told them, Habila Adamu. They 
asked me are you in the Nigerian Army? I said no. Are you a 
Nigerian police? I said no. Are you an SSS? I said no. I am a 
businessman. Because if I told them I am working with the 
government they would have slaughtered me like a lamb. I told 
them that I am a businessman. They said are you a Christian? I 
said yes, I am a Christian. They asked me why are we preaching 
the message of Mohammed and you refuse to accept Islam 
religion? And I told them I am a Christian. We are also 
preaching the message and the good news to those that do not 
know God and to you.
    He told me, ``Habila, do you mean that you Christians know 
God?'' I said, ``Yes, we know God. That is what I am preaching 
to you.'' He called my wife. He said, ``Let her witness what 
will happen to her husband.'' He said, ``Habila, you can deny 
your faith in order to be saved and live a good life.'' And I 
told him that ``No, I am a Christian. I would rather die as a 
Christian.'' He told my wife, ``Plead with your husband that 
you will live a good life.'' And I told him, ``I am a 
Christian.'' He said, ``I will give you last chance, deny your 
faith, Habila or are you ready to die as a Christian?'' I told 
him, ``I am ready to die as a Christian.'' Before I closed my 
mouth one of them fired at me with an AK-47. It passed through 
my nose. This is the entering place of the bullet, an AK-47. 
This is the exit place of the bullet, an AK-47. I fell down on 
my face, blood is rushing everywhere. One of them followed me, 
stepped on me two times to confirm whether I am still alive or 
I am dead. They have found out I am dead. They shout, ``Allah 
Akbar'' means Allah is great. They went out.
    Even my wife thought that I am dead. She is crying, saying 
many things. She said, ``Lord, why? Why did you let these 
things happen? Why you leave my husband to die at this moment? 
I have little ones. What I can tell them about their father?'' 
She said, ``Lord, I thank you because I am aware my husband is 
inside of you. Lord, give me the heart to stand in the end and 
help my children to stand in their faith.'' When I heard that I 
said, ``Oh, I am still in the world. Lord, why me?''
    Now because I won't want to have to sin against God I 
raised my head and told her I am still alive. I did not die. 
She is shocked. She said the way you are bleeding you will not 
survive. And I told her that even though I will not survive, I 
have a message to everyone that will hear my story when I leave 
this world. Please send this message that to live in this world 
is to live for Christ, to die is a gain.
    For a few minutes tense everywhere. I asked her to go out 
and look for help, somebody to help me. All the Christians 
around, they were killed that night. I am the only survivor. 
From 11 o'clock until 7 a.m., my face was swollen, my eyes were 
closed. I am still alive. Many Christians that remain in 
Potiskum, each one will touch me and would cry, they said, 
``Habila, until we meet in heaven, no one must die who will 
survive.'' I asked myself, why me? I said, Lord, why me, take 
my life, Lord. He keeps me for a reason.
    I am pleading, Americans, I am pleading, I am crying on 
behalf of all wounded Christians and past dead Christians in 
Nigeria. Let this killing of innocent people stop. Let Nigeria 
hear the cry of the widows and the orphans to pay for their 
school fees, to pay for their feeding and also pay for the 
wounded soldiers. Let them rebuild the broken churches and the 
houses. I also take this opportunity to appreciate what the 
Voice of Christian Martyrs does to me. They have paid for my 
operation, they have paid for my housing, my feeding. The 
government did not stand for me, but they stand for me and 
Americans can stand for me. Thank you so much. Thank you very 
much.
    [The prepared statement of Mr. Adamu follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so very much for that very powerful 
testimony. I would just note parenthetically that it was the 
Voice of Christian Martyrs and Pastor Richard Wurmbrand, his 
book, Tortured for Christ, as the book that got me in 1981 into 
the religious freedom issue. He was held by the Romanian 
Securitate, tortured almost to death several times, and then 
wrote a book when he finally got out about the persecuted 
Church which has been revolutionary in mobilizing people around 
the world to stand up for the persecuted Church. So thank you 
for being such a hero and for telling all of us that we need to 
do more. Thank you so very much.
    Mr. Adamu. Sir, I submit for the record, I submit my 
testimony for the record.
    Mr. Smith. Without objection, it will be made a part of the 
record.
    Mr. Zenn, thank you, and welcome.

 STATEMENT OF MR. JACOB ZENN, RESEARCH ANALYST, THE JAMESTOWN 
                           FOUNDATION

    Mr. Zenn. Thank you very much, Chairman, for the 
opportunity to speak here. It is also an honor to be speaking 
next to these distinguished panelists, especially it is 
important that Mr. Adamu is here to provide a personal face to 
issues that can seem so far away to people here in America.
    Part of my objective of being here today is to share some 
analysis on this group because only through strong analysis and 
understanding of where this group is operating, how it is 
funded, who are its members can we actually develop strategies 
to counter it beyond symbolic gestures.
    I have, however, included some policy options for the U.S. 
in my written testimony and the Wall Street Journal article 
that was published yesterday called ``Boko Haram Isn't Only 
Nigeria's Problem.''
    Now there are two main reasons why Boko Haram is not only 
Nigeria's problem. I would like to start by noting that in 
2002, Boko Haram set up an Afghanistan compound modeled after 
the Taliban, two miles from the Niger border. After it engaged 
in clashes with the local community and security forces, its 
members fled across to the border to Niger. In 2004, Boko Haram 
organized its first attacks on the security forces in the 
Mandara Mountains between Nigeria and Cameroon, again its 
members fled into Cameroon after those attacks. In 2009, in 
July, there were for 4 days a series of attacks between Boko 
Haram and security forces. Thirty percent of Boko Haram members 
fled into the border region after those attacks, one member 
fled to Somalia and later masterminded the attacks on the U.N. 
headquarters in 2011. It is also after 2009 that Boko Haram 
went underground and it no longer solicited its funding sources 
from traditional mainstream sources. As a result, although the 
FTO label can help effectuate a crackdown on mainstream funding 
to Boko Haram, most of its funding is now local and informal. 
And therefore, it will require other measures and strategies at 
the more local level to counter Boko Haram funding.
    In May 2013, the Nigeria security forces again launched an 
offensive against Boko Haram as part of a state of emergency, 
but again Boko Haram fled into the border region. Its leader, 
Abubakar Shekau, who has a $7 million bounty on his head, has 
been reported in Mali, Niger, and Cameroon all in the past 
year. Until efficient border strategy is implemented to crack 
down on Boko Haram involving Nigeria and its French-speaking 
neighbors and including leadership from the U.S. and France, no 
matter what policies we take here in Washington or the Nigerian 
security forces take, Boko Haram cannot be defeated.
    The U.S. should know, as well as any other country, how 
difficult it is to suppress an insurgency when the insurgents 
can go into a neighboring country and receive sanctuary. We 
have experienced this in Afghanistan. To give you an example, 
Algeria recently established 80 border posts in its country. 
That is an example of a country taking border security 
seriously. We need to see that type of collaboration in 
Nigeria.
    The second reason why Boko Haram is not only Nigeria's 
problem is because of the breakaway faction Ansaru which is an 
al-Qaeda in the Islamic Maghreb extension in Nigeria. It is 
basically Nigerian members of al-Qaeda in Islamic Maghreb, who 
for the sake of efficiency have established an operation in 
Nigeria. I would submit, in fact, that the U.N. headquarters 
attack, the Federal Police headquarters attack, and the string 
of suicide bombings of churches in the middle belt of Nigeria 
in 2012 show the al-Qaeda in the Islamic Maghreb footprint more 
than the grassroots footprint of Boko Haram. Ansaru's leaders 
and founders, for example, Barnawi and Kambar, who have been 
designated by terrorists by the U.S. received their training in 
Algeria in the 2000s and even operated with Mokhtar Belmokhtar, 
a famed kidnapper in the Sahel as early as the 1990s.
    The symbolism of Ansaru, which I have depicted in the 
written testimony, and its propaganda, are also consistent with 
al-Qaeda in the Islamic Maghreb and its attack style, 
kidnapping foreigners for kidnapping and ransom is also the 
same style as al-Qaeda in the Islamic Muslim in the Sahel. I 
would also submit that the French family that was kidnapped in 
Cameroon in February 2013, as well as the attack on a prison in 
Niamey, Niger in June 2013 to free Nigerian militants were also 
the work of Ansaru and international militant networks.
    As a result, I think this FTO label must target 
specifically Ansaru and Jama'atu Ahlis Sunna Lidda'wati wal-
Jihad which is actually the official name of the group that we 
call Boko Haram, based in the border region. Boko Haram has, 
however, become a nebulous term to refer to all types of 
violence in Nigeria so in order to effectuate this FTO label, 
let us focus it specifically on these two groups and use other 
non-securitized measures to tackle radicalization in Nigeria, 
which relates to land conflicts between majority ethnic Muslim 
groups and Christian groups, as well as the result of foreign 
support of radical groups and that includes countries like 
Iran, Saudi Arabia, that have supported the development of 
radical groups where Boko Haram also has its roots even in the 
1990s and 2000s.
    So thank you very much. I really appreciate the opportunity 
to speak here today.
    [The prepared statement of Mr. Zenn follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much, Mr. Zenn for your analysis 
and for your myriad of recommendations. I think you make a 
number of very tangible suggestions to the State Department and 
to us, so thank you very much.
    Mr. Zenn. Thank you very much. I would be glad to work on 
them.
    Mr. Smith. Our next witness is Dr. Guy Nzeribe. Thank you 
so much for being here. All of you, thank you for your patience 
after that long delay from the voting and the floor is yours.

  STATEMENT OF GUY NKEM NZERIBE, PH.D., PARTNER, GUY NZERIBE 
                           ASSOCIATES

    Mr. Nzeribe. Thank you very much, Mr. Chairman. Thank you, 
Chairman Smith, for the privilege and opportunity to testify 
before your joint subcommittees, as you begin the important 
deliberations and the critical issue of declaring Boko Haram a 
foreign terrorist organization. Thank you, Ranking Member Bass. 
I also thank you for the opportunity to come here and address 
these issues with you.
    Many of my comments are based directly on my familiarity 
with the country, close observations with developments therein, 
and easy access to the political class in Nigeria.
    As Chairman Smith and Chairman Poe have determined, Boko 
Haram is engaged in activities that terrorize the general 
Nigerian populace and with the allied Ansaru group, also 
foreigners. As such, Boko Haram has become part of a broader 
strategic challenge to the United States and our international 
partners.
    Today, I want briefly to offer some context for this 
challenge, share what I have learned and suggest a view of Boko 
Haram that is increasingly being shared by analysts in Nigeria. 
I believe it is an extremely important area that has not 
received the attention it deserves from the intelligence and 
law enforcement communities. Of course, this approach does not 
override the determination of Boko Haram as a force for evil 
and terrorism. It stands, and its activities fall, very well 
within the FBI's definition of a terrorist organization.
    Background. Boko Haram is a moniker that roughly translates 
into ``Western education is forbidden.'' But what they really 
want to do is to establish an Islamic state in Nigeria that is 
governed under strict Sharia law. Boko Haram adheres to the 
understanding that Muslims taking part in any secular 
educational, political, or social activity should be forbidden. 
In this, they really harken back to the Caliphate of Sokoto and 
the Empire of before.
    Boko Haram came into being in 2002 under the leadership of 
the charismatic Mohammed Yusuf. Years of recruited followers 
established a compound in Maiduguri, capital of Borno State. 
They lived under the Koranic phrase, ``Anyone who is not 
governed by what Allah has revealed is among the 
transgressors.''
    Yusuf had access to the ruling elite because he came from 
that class, too. And was indeed financed by them. Subsequent 
investigations revealed that in addition to Governor Sheriff of 
Borno, the prominent national politician, Ali Ndume of Borno, 
too, who was also financial linchpin for the group. There was 
also a former Nigerian Ambassador, the late Said Upindo who 
actually was the treasurer, if you want.
    Why were these and other prominent Borno politicians 
involved with this group? Because they wanted to subvert this 
group and make them part of their election-winning machine. 
Boko Haram supplied the tax and could coerce voters by force to 
vote as was desired by this group. So Boko Haram subsequently 
helped Sheriff win the governorship of Borno State. According 
to Boko Haram, a tacit understanding was reached with Governor-
Elect Ali Modu Sheriff that called for the implementation of a 
stricter form of Sharia law and the transformation of Borno 
into a model Islamic state.
    A leader of Boko Haram, Alhaji Buji Foi, was appointed to 
the cabinet of Governor Sheriff. After a year of no movement 
toward the realization of the promised Islamic state, Mohammed 
Yusuf asked to withdraw from the governing administration. 
Alhaji Buji Foi resigned and was eventually killed in 
suspicious circumstances that Boko Haram said believed was 
officially instigated. Nineteen members of Boko Haram or 
sympathizers were mowed down during the burial procession for 
Alhaji Buji Foi. Therefore, the relationship between the 
Governor and Boko Haram soured. The Governor then tried to 
suppress the sect. Open season was declared on the sect.
    Inadequately trained police forces responded to threats of 
challenge to authority by rounding up anyone who they thought 
might possibly be connected to the annoying group. Usually, 
that meant sweeping up innocent bystanders in the search for a 
few guilty men and jailing or disappearing them. When Boko 
Haram first struck in 2009, the police and others from the 
administration reacted by raiding their compound and extra 
judiciously executing the group's leaders including Mohammed 
Yusuf. In reaction, Boko Haram began a transformation into the 
terrorist organization that we know today.
    In Maiduguri, their home turf, drive-by motorbike 
assassinations of politicians and policemen became their modus 
operandi. Their terrorist activities soon ensnarled the rest of 
the city and in quick order the local security forces could no 
longer contain them. Boko Haram stepped up wanton killings, 
bank robberies in and around Maiduguri. When the Federal 
Government in a ham-fisted manner tried to contain the 
conflict, the sect turned its eye toward the military and 
government installations. There have been atrocities and lots 
of human rights abuses on both sides. But for some notable and 
very disturbing activities in Kano, Jos, and Abuja, Boko Haram 
has likely confined their activities to northeastern Nigeria. 
There is a growing fear that many extremist elements within the 
sect may try to escalate this crisis throughout the country.
    When we talk about Boko Haram, we normally bring up again 
the Islamist bent and this fear of Sharia. Apart from its 
engagement in terrorist activities, most disquiet around Boko 
Haram centers on their expressed desire to create an Islamic 
state that will be based on strict execution of Sharia laws. 
With the agitation for Sharia law, Boko Haram managed to focus 
the public eye on the role of Islam in Nigeria. This spotlight 
on Islam was enhanced, especially in America after the 
``Underwear Bomber,'' Umar Farouk Abdulmutallab, tried to blow 
up an aircraft that was landing in Detroit on Christmas Day a 
few years ago. Umar Farouk, of course, is a Muslim from 
northern Nigeria and would necessarily share cultural and 
religious traits with members of Boko Haram. Al-Qaeda in Yemen 
quickly claimed Abdulmutallab and with that sent intelligence 
analysts scrambling to connect existing and potential dots that 
may lead to Nigerian groups like Boko Haram.
    Most states in northern Nigeria share the same socio-
economic, religious and political conditions that would beget a 
sect like Boko Haram. Indeed, northern Nigeria does have a 
history of home-grown Muslim sects that present security and 
administrative challenges to the nation as a whole. We talk 
about Boko Haram, but before Boko Haram in the 1980s, later 
1980s, there were the Maitatsine uprisings centered in Kano, 
but also radiated from other areas in the north.
    In the past decade, two other sects have come into being. 
This of course is Ansaru, a more radical offshoot of Boko 
Haram, and of course there is the one that is not talked much 
about, the Darul Islam sect. But all of them having come on the 
fact that they adhere to doctrines that move them out of step 
with the belief structure of the majority of Muslims in 
Nigeria. But to varying degrees, they do believe that the 
pervasive corruption in Nigeria and inequality mitigates any 
real practice of Islam. So for them, established Muslims, 
especially Muslim leaders cannot be seen as true Muslims, too. 
This would account for why they killed two Muslims, because 
they don't see them as true Muslims.
    But throughout the history of Nigeria, the rise of sects 
like Boko Haram has coincided with periods of stark economic 
stagnation where unemployment is very rife, and inequality 
grows ever larger. Jobless and angry young men become excellent 
candidates for fringe groups that teach the necessity to take 
up arms to create a society based on true tenets of Islam. The 
glaring injustice, abject poverty, and pervasive hopelessness 
are the driving forces that create organizations like Boko 
Haram and MEND in the Niger Delta. Unfortunately, Nigeria with 
its impressive educated, intellectual class and vast wealth to 
boot, has so far failed miserably at basically delivering any 
veneer of good government, justice, economic, and physical 
security for all of its people.
    Economic reports due out next month will show that Nigeria 
now has the largest economy in Africa, but with a GDP that 
currently ranks as the 32nd largest in the world, Nigeria is 
the 156th out of 187 countries on the United Nations Human 
Development Index. So that is one of the disparities.
    Boko Haram attracts discomfort with its talk of Sharia 
laws. These are edicts that govern morality and lifestyles for 
the practicing Muslims. Christians, as well as people of other 
faiths or nonbelievers have not usually been subject to Sharia 
law. Admittedly, there have been instances where the insistence 
of its use create tension between people of different religious 
backgrounds. Most of the region that is covered by today, 
northern Nigeria, has been under the sway of Islam for 
centuries and as such was already subject to Islamic code prior 
to the colonialization by the British in the early 1900s. Under 
the British, Sharia law was the law of the land, since of 
course, the severe and shocking penalties. These trends 
continued after independence, but developments in the latter 
part of the last century led to a renewed clamor for the 
adoption of more stringent Sharia laws. By this time, the 
monolithic northern region had been carved into numerous 
states. In the year 2000, several predominantly Muslim slave 
states in the law and adopted an advanced set of Sharia law as 
part of the legal systems, despite the concern of the largely 
Christian population.
    So far, the introduction of Sharia law in northern Nigeria 
have not produced the hoped-for benefits that they wished 
because, again, the place remains poor. And Sharia law, the way 
it is applied in Nigeria, it is actually adapted to the 
cultural sensitivity of the people there, so it cannot produce 
that.
    But in conclusion, when we discuss--here, we talk about the 
issue of Boko Haram. This question has been discussed in 
Nigeria too, because at the moment, the question is being 
asked, ``What is Boko Haram?'' Just like Zenn said, it has 
morphed into a lot of organizations, a lot of entities with the 
goal now, the way it is seen in Nigeria, it has been looked 
upon by certain analysts in Nigeria as being able or capable of 
making or breaking the nation. Because people in the north, at 
the moment, we have elections planned for 2015, and seen 
through that prism, the northerners see Boko Haram as something 
that was actually created by southerners to create disunity 
among them.
    The southerners look at Boko Haram again from that prism 
the evil person would say okay, Boko Haram, they are trying to 
kill us again the way they did during the Biafra crisis. The 
south--I know I am going overtime. Thank you. But I will answer 
questions.
    [Mr. Nzeribe did not submit a written statement.]
    Mr. Smith. Mr. Nzeribe, thank you very much for your 
testimony. Just to ask a few questions, let me begin first 
though with Mr. Adamu.
    What was the status and the state of Muslim-Christian 
relations before Boko Haram? I travel extensively through 
Africa, but also through other places where there are large 
Christian and Muslim populations, and in even Sarajevo, before 
the Yugoslav war, Muslims and Christians had a very close 
friendship which was then exacerbated by, in that case, the 
Bosnian Serbs. What was the state of the relation between the 
two?
    Mr. Adamu. Before the coming of Boko Haram, the Muslims and 
Christians were united. We are living at peace with each other. 
During some celebrations, we are sharing food and other things 
with each other. We live in peace, but the coming of Boko Haram 
that is where the crisis has started. But before we were living 
in peace.
    Mr. Smith. One of my biggest takeaways from this trip which 
reinforced what I thought was the case on the ground was just 
that, that there was a harmony. There is always some friction, 
but there were genuine friendships among families and one of 
the biggest takeaways was how the Muslims are being targeted, 
not to the extent Christians are. One of our witnesses that was 
supposed to testify via Skype from the U.S. Embassy in Abuja, 
but there was some glitch that occurred as of yesterday, not 
that he didn't want to testify, it was a technical glitch, but 
Dr. Khalid Aliyu was going to testify here to give a Muslim's 
point of view on all things as it relates to Boko Haram. That 
was one of the points that I think is under appreciated in the 
United States and in the West in general.
    These are terrorists who as you just said, Doctor, they do 
target Muslims, but they have a hatred of all things Christian 
and it is such a perversion of Islam. One of my close friends 
in the Islamic community is Reis Ceric, the Grand Mufti of 
Bosnia. And I will never forget hearing him give a sermon for 
the reinternment of several, in this case 800, people who died 
in Srebrenica. And it was a terrible genocide, 8,000 plus 
people killed in the matter of days, almost all men, separated. 
It was one of the worst episodes of U.N. peacekeepers ever 
because they actually helped facilitate it and took no action 
to stop it as well. So the common cause of Muslims and 
Christians needs to be emphasized as never before, especially 
pious Muslims who want no part of what Boko Haram is doing.
    One of the questions I asked the Ambassador earlier, Mr. 
Ogebe, was regarding the victims. What I learned on the trip 
was that victims of the terrorism are not receiving the kind of 
assistance from the international community including the 
United States. Individual, private, voluntary, charitable 
groups are stepping up to the plate like Voice of the Martyrs 
and others, but nowhere near approximating the need of these 
individuals who are now IDPs, have PTSD problems, especially--
we met with a child and you will remember this, Mr. Ogebe, who 
lost his entire family, all slaughtered. He was having a 
sleepover with a friend when the Boko Haram came to his house 
and slaughtered his mom and dad, his brothers and sisters and 
extended family. I mean that little boy, I can't imagine the 
trauma that he feels, so if you could speak to the victims' 
assistance that seems to be slim and none.
    Mr. Ogebe. Yes, thank you very much, Mr. Chairman. The real 
concern for us is not only the failure of the state to provide 
security, but the failure of the state to provide Social 
Security for victims after they have been victimized. And yes, 
I do remember that gentleman.
    Now what has happened is we have found that the Federal 
Government, as recently as last week, announced that they will 
not provide compensation to victims which we find quite 
unsettling because during your visit, you did mention the 
victim compensation fund from 9/11, which we thought would be a 
perfect model for this situation. We have seen this situation 
get progressively worse where last year we had IDP camps in 
Jos. Now we have refugees in Cameroon which is a flashback to 
the Biafra war where so many Nigerians became refugees in 
Cameroon and never came back, so the impact was felt in 
neighboring countries around Nigeria. So we do feel that there 
is a need for the U.S. to help the Nigerian Government to 
understand that the need to take care of their citizens before 
and after terrorist attacks.
    In conclusion, let me say this. We have an observed 
situation where the Federal Government of Nigeria has committed 
to spend about $30 million to repair the U.N. building that was 
bombed by Boko Haram. And at the same time, turning around and 
saying well, we are not going to provide compensation to our 
own citizens who were impacted by this terrible situation.
    One last note, the young lady, Deborah, whom you met, the 
orphan girl whose father and brother were killed in her 
presence, it was a 9/11 charity in New York that offered for 
her to come here to trauma treatment after she spent a night 
tied to the body of her father and her brother. It was average 
Americans who just cared, who sent for her. And the U.S. 
Embassy denied her a visa twice. So for us charities who are 
working on these issues, we are dealing with an unresponsive 
Nigerian Government in some instances. We are dealing with an 
unresponsive consulate and we are dealing with terrorists. So 
it can be very overwhelming.
    Mr. Smith. Thank you. Mr. Zenn, in your ten measures of 
recommendations, your third one is something I raised with 
Ambassador Thomas-Greenfield and that was the issue of the 
Leahy amendment. And I will just quote you in part because I 
don't think you mentioned this in your oral presentation, but 
you mentioned,

        ``Mentor Nigerian troops in counterinsurgency based on 
        best practices learned from years of dealing with IEDs, 
        urban warfare, and ambushes in Iraq and Afghanistan. 
        Currently, the Leahy Act effectively bans U.S. support 
        to Nigeria's Joint Task Force that is fighting Boko 
        Haram. Even JTF units with positive human rights 
        records are blacklisted because of Leahy's wide-
        reaching ban on entire units--rather than specific 
        abusers. Leahy should be reexamined, or else Nigeria 
        will continue to look to countries like Pakistan for 
        mentorship, which is no recipe for success.''

    I raised that when I was in Abuja with our leadership 
there. We had a very good discussion about that. Again, as I 
mentioned to Ambassador Thomas-Greenfield, I understand the 
abundance of caution argument, but when it is counterproductive 
and we can both train true human rights soldiers who have a 
respect for human rights and also to be more effective at doing 
their job, it seems to be counterproductive. Could you speak to 
that?
    Mr. Zenn. Right. I wanted to mention this when I spoke 
about the July 2009 fighting for 4 days between the security 
forces and Boko Haram which actually led Boko Haram to become 
the nasty jihadist group that it is today. And it is very true 
that there were a lot of excesses on the parts of the security 
forces and it is certain that there are some units of the JTF 
that have performed human rights abuses. That being said and 
this comes from people who I know in the security forces as 
well as people who have witnessed them, there are units that do 
follow human rights that are committed to human rights and 
combatting Boko Haram. But it seems that the wide-reaching 
scope of this is limiting our ability to fight Boko Haram 
beyond FTO measures which really are on a most broad scale and 
not the local level. And I understand the logic behind Leahy, 
but I think we can be more specific and work with those groups 
that are committed to human rights. And there is no country in 
the world right now better than the United States who has 
experienced insurgency for 12 years to mentor them.
    And I would also mention that Boko Haram is learning for 
al-Qaeda around the world, but the Nigerian security forces are 
not being taught by those are fighting al-Qaeda around the 
world.
    Mr. Smith. We already have a rather close relationship with 
their Navy in the south. So there is already a relationship.
    Mr. Zenn. There is precedent.
    Mr. Smith. The chilling effect that Leahy inadvertently is 
having I would respectfully submit is counterproductive. We 
need to really delve into this and I thank you for your point 
and as Mr. Ogebe mentioned, Emmanuel mentioned before, he was 
tortured by the Nigerian military and yet he, too, sees the 
need for, with proper vetting, doing the kind of training that 
will truly make the difference. We have learned so much as a 
country ourselves that ought to be shared, I would think with 
the Nigerian military.
    Mr. Nzeribe. If I may speak to that. At the moment, 
currently, the Nigerian Government, the Nigerian military is 
engaged in training units for counterinsurgency operations. 
Those are units different from the ones now that operate out 
there. These units, I think they number 3,000 at the moment, 
the goal is to get them to the forefront to fight. Because even 
the government recognizes that to fight Boko Haram and some 
sects you need to give the troops the tools they need to fight.
    There was debate going on if they really needed 
counterinsurgency training or counterterrorism training, but 
all in all I think they are working toward that angle, that 
area. I couldn't tell you off my head who is involved in 
helping with the training. I suspect some Israeli--but they are 
doing something for that now.
    If I may speak to the victim compensation fund, too. It is 
a topic that is actively debated this time in Nigeria. It has 
been complicated. As a matter of fact, either yesterday or 2 
days ago, the President--well, he finally refused that he was 
not going to go along with that, but he was just searching for 
solutions. It has been complicated by the fact that any attempt 
to create--this is a sticking point--create a victim's fund 
would attract on the other side to the demand to be involved 
with it. Boko Haram is still demanding from the Federal 
Government compensation for killing Mohammed Yusuf today. As a 
matter of fact, a little while ago there was agreement, they 
were in discussions first with the Borno State government for 
cease fire to cease operations and although they asked for 26 
billion naira, the Federal Government, Borno State was eligible 
for foreign aid, but the government said no. It all boiled down 
to the fact that if they did, they would have to compensate for 
Mohammed Yusuf.
    What has this initiated in the discussion in Nigeria at the 
moment, they are talking about, okay, you have a group of 
northern politicians who have taken this now as their own 
cause. They are saying you refuse to compensate our people, 
okay, we want Boko Haram to stop fighting. You need to pay 
them. We are not talking now about the victims, just pay them 
off, the same way you paid off the many people in the Niger 
Delta. So they see that as discrimination. And it becomes a 
rallying point for southern politicians.
    Any way you take it, it is really complex, Nigeria, and 
that is the image that comes through.
    Mr. Ogebe. Yes, Mr. Chairman, if I may say something really 
quickly about this issue of compensation and especially the 
U.S. argument that this is economic and we need to throw more 
money at the problem. The ultimate issue here is that the U.S. 
is opening a slippery slope to the institutionalization of mass 
murder as a legitimate pathway to more Federal resources. We 
cannot create a precedent that if you go out and bomb churches, 
we are going to create a special ministry for you. If the 
Government of Nigeria could actually consider offering amnesty 
and finance to Boko Haram to lay down arms, why can't they 
consider providing compensation for victims? So this is the 
wrong message that we are sending.
    Let me speak again to the military response. I want to 
emphasize the point that the Nigeria military has served as 
boots on the ground for the U.S. in situations that the U.S. 
did not want to go in. In Liberia, where Africa-Americans went 
back and established that country, the U.S. has strong ties 
with our country, but it was Nigerian troops and billions of 
Nigerian money that preserved it. In Somalia, Nigerian troops 
are there up to this date. Nigeria is contributing to nine U.N. 
peacekeeping missions. The U.S. is not involved in any of 
those. So this is a regional power broker that we need. And so 
the idea that we cannot provide technical assistance to them to 
deal with the insurgency that they are not used to, but we as 
Americans have expertise on, is chilling.
    In conclusion, let me say that more Nigerian soldiers have 
died at home at the hands of Boko Haram than have died in the 
peacekeeping operations in the last 3 years in nine different 
countries. And so even the U.S. Army had to face a homegrown 
insurgency here, they would have the same challenges that the 
Nigerian army is having. We saw what happened with the shooting 
in Texas when someone turned on Americans who were in their 
homeland and killed 14 in 1 day.
    Let me wrap up my thoughts here by mentioning some of the 
videos that we couldn't even submit to your committee are 
chilling. I recently saw a video of Boko Haram decapitating a 
woman. Generally, it is the people like Adamu Habila fits the 
prototype. You need to be male and non-Muslim and you will be 
killed. They usually don't kill the woman. But to see a grown 
woman who was accused of being a security agent, being 
decapitated on video and people chanting ``Allah Akbar'' was 
one of the most disturbing things I have seen. And this kind of 
explains why the military response is so high handed because 
what these people are doing is medieval, it comes out of the 
Stone Age and I do not believe there is any basis for also 
negotiating with such evil people and offering them money to do 
this. I think that undermines the rule of law and will end any 
efforts to maintain a civilization.
    Ms. Bass. Thank you very much, Mr. Chairman, and to the 
whole panel. I just wanted to thank you for your patience. I am 
sorry. It is always tough and we always complain about it when 
we have the interruption with votes.
    I wanted to ask Mr. Adamu, one, I really appreciate your 
personal testimony about what happened and the fact that you 
took the time to come here and share your story. And I just 
wanted to know if you could talk a little bit more about your 
area and why it was targeted? Was the whole area a Christian 
area and it was all being targeted? And then since then, you 
survived which is amazing, and I am wondering if you--what has 
happened to your area since then and your family and all that?
    Mr. Adamu. Thank you so much. The Yobe State is one of the 
major states where the Boko Haram is based. Since the 2011 
elections, the Yobe State, we Christians in Yobe State started 
facing one tenth of the order. Before the attack, before 2011, 
the Christians that are living in Yobe, we are living like 
second-class citizens in the state because even though we read, 
no government can offer appointment for you in order to work. 
If providential you have appointment to work in the government, 
you will sit there. The government will not promote you. I am 
working with the government radio stations. I spent 8 years 
without promotions, 8 years without promotions. Also, that is 
what we are facing in Yobe. And also, we are denied to have a 
land where we build our churches. We are denied to have 
teachers that can teach our children in school in Christian 
knowledge. Churches sacrifice in order to pay teachers in order 
to teach Christian knowledge in Yobe. But they have denied us 
of all this.
    We are also suffering always in our places of work. For 
example, in the northern part of Nigeria, you have Ministry of 
Religion Affairs where 100 percent of the staff there are 
Muslims. Not one Christian is there. You see, this is what 
continues to happen. When all these things happen, now few 
Christians that are men arrive. They have fled to the nearest 
countries, in order to have where they will stay and also the 
state government started rights to us where we would go back to 
the state or they would terminate our appointments. Many of the 
Christians have been terminated their appointments. They are 
not working now. You see how these people will survive, they 
are living without work. Now that is why we are calling for a 
Federal Government to help the northern Christians in order to 
afford them an appointment to work in the Federal Government. 
And those that have lost their job, let Federal Government or 
the state government to give them back their appointment and 
pay them their money and their salaries.
    Ms. Bass. Thank you.
    Mr. Adamu. Thank you so much.
    Ms. Bass. Mr. Zenn, you mentioned that Boko Haram, the 
primary funding is local. And I was wondering what you meant by 
that? Maybe you can elaborate on that some more, local, how 
much, from where? And I am asking that in the context of 
wondering if there is anything that the U.S. can do to be 
helpful? If it is all local funding, how do we----
    Mr. Zenn. Well, I think one thing that is important to 
consider is that before July 2009, Boko Haram was essentially 
one of the many, if not hundreds or thousands of Islamists,
    Salafist groups in Nigeria and it was fairly mainstream. 
There was nothing particularly illegal about funding it. The 
funding streams came through the regular Islamist funding 
streams, through Sudan, Saudi Arabia, Somalia, and possibly 
even from Western countries.
    So during its rise from 2002 to 2009 when it was 
propagating its police system which was slightly, but not 
completely more radical than other groups, it was well-funded. 
And it even had funding from local politicians that wanted to 
be on its side because it was a fairly popular group because it 
had a charismatic leader. And there is already a radical base 
in northern Nigeria as we have learned.
    After 2009, it shifted from being a preaching group to 
being a bonafide jihadist group with full-fledged violence. And 
it has become much less tenable for even radical Muslims to 
support a group like this financially. So I don't think it's 
going through mainstream funding networks now as much as 
before, but it has responded by robbing banks. So can we help 
Nigeria with better bank security? It has kidnapped local 
people and taken them to safe havens in northeastern Nigeria. 
Can we help Nigeria to reduce these safe havens, either by 
providing them with intelligence from the air or better border 
security? And it has responded by stealing cattle from local 
people. So again, this goes back to the Leahy argument, what 
can we do to help Nigeria become more capable and competent of 
providing security for its own citizens and that will, in turn, 
reduce its ability to kidnap, exhort, tax local people and fund 
itself.
    And again, our broader al-Qaeda counter funding initiatives 
might help as well because I do believe this group is connected 
to al-Qaeda in the Islamic Maghreb and such networks.
    Ms. Bass. Thank you. Thank you. And then finally, I wanted 
to ask Mr. Ogebe and Mr. Nzeribe, it seemed as though when I 
was listening, Mr. Ogebe when you were talking, unfortunately, 
I walked in a little bit late, so I wanted to ask a question 
for both of you to give your perspectives on what the root 
causes of Boko Haram are, because it seemed as though I heard 
two different perspectives, but I walked in in the middle of 
Mr. Ogebe. Because I believe you were disputing the notion that 
poverty was--you believed was the root cause. So maybe you 
could both address that.
    Mr. Ogebe. Yes. Thank you very much, Ranking Member Bass. I 
think that there is a reductionist analysis that has 
oversimplified the deadly theological insurgency and turned it 
into an ideological, or regional, class warfare. I want to say 
that there is a lot of poverty in the north. I am from the 
north, though the middle belt. And there is deep poverty there 
as well. As a child growing up, my mom asked me to go out and 
buy half a loaf of bread because we had guests coming. I didn't 
know it was possible to do that. I walked into the store. They 
cut it in half and sold me half a loaf of bread. We came from a 
well-to-do family. My dad was a judge. My mom was a doctor. So 
there is poverty in the north of Nigeria.
    Now the problem here is this. Poor people are some of the 
most generous people you will ever meet and Muslims are some of 
the kindest people you will ever meet. So these people who are 
decapitating women do not remind me of the poor Muslim 
neighbors I had. I traveled to England once. I came back. My 
poor Muslim neighbor, I was gone longer than I expected, had 
gone into my apartment and washed all my clothes before I came 
back. These are not the people who are out and bombing 
churches.
    Now having said that, I believe that this is an export of 
an extreme ideology. I will give you a quick illustration. 
Polio has almost been stamped out as a disease in the world. It 
is now subsisting in only three countries, Pakistan, 
Afghanistan, and northern Nigeria. What is the link? We need to 
ask ourselves these questions.
    Ms. Bass. I understand the link between Pakistan and 
Afghanistan. That is clear. Northern Nigeria?
    Mr. Ogebe. If you look at the U.S. terrorism reports, you 
will find that Pakistan, Afghanistan, and Nigeria rank the same 
ranking, the top five countries that engage in terrorism. So 
there is a deep theology where they shoot health workers. The 
two countries that health workers were shot were Pakistan and 
Nigeria.
    Ms. Bass. Yes.
    Mr. Ogebe. So no matter what investments you make, if you 
don't change his warped mindset and this warped theology, we 
will have these problems. I will say remember the two Americans 
who were freed that were kidnapped in the south.
    Ms. Bass. Yesterday, right, day before?
    Mr. Ogebe. They paid the ransom and they were freed. That 
is economic. Now in the north, Ansaru kidnapped seven 
Westerners and executed them, they didn't even bother waiting 
for ransom.
    Ms. Bass. And I do understand what you mean by the export 
of an ideology, but what is the basis of that ideology taking 
root?
    Mr. Ogebe. The problem is with the interpretation of jihad. 
Some would believe that it is not a movement, it is not 
national, it is physical violent jihad. There is another school 
of thought that says well, when they said kill the Jews and the 
Christians, it was specific to that time and not to this time. 
So you need to read it in context. There are others who feel, 
no, it is universal. We need to keep doing that now.
    Let me add that Iran, and this goes back to a question that 
was asked earlier, Iran has shipped arms to Nigeria. Hezbollah, 
they just discovered some of their weapons in Nigeria. So all 
of that activity is going on. The point is this, there are some 
Shia members that were trained and groomed by Iran who were not 
satisfied with their nonviolence posture. And so they decamped 
to form Boko Haram or to join Boko Haram because they felt that 
this would give them expression to be more violent in their 
underpinnings. And I believe that Zenn has written a little in 
this area. So it is not ideology that is really, and the 
theology that is really, I think, at the core of this problem.
    Ms. Bass. Thank you. Mr. Nzeribe.
    Mr. Nzeribe. You did hear correctly, there is a difference 
in the way we look at it. I think it approaches the issue as an 
advocate and I am looking for broad strokes that actually would 
help the policymakers come up with policies that can be 
implemented and on a different level we can talk, other things 
will come in.
    Original Boko Haram, any way you cut and slice it, it is in 
the conditions, the dire economic conditions in the north. 
There is huge poverty, but it is almost structural because you 
have--this goes back actually to the Sokoto Caliphate and when 
the British came into Nigeria, they discouraged contact and 
education between Western education. And the British were only 
happy to indulge them, so they introduced indirect rule. The 
Emir was responsible. And the Emir goes Western education, we 
don't need. So that tradition, actually, Boko Haram is in a 
historical tradition that was always there. But what has 
happened, especially since the '80s, until the '70s, after the 
war, the Biafra war, it was masked by the fact, the oil 
industry boomed and the north actually held sway over the 
economy of Nigeria. So you had a lot of transfer from the south 
to the north. And that masked some aspects of a nondeveloping 
economy that you wouldn't see because it seemed to be money 
everywhere. But in the '80s, beginning of the '80s, especially 
since the year 2000, you have had a situation in Nigeria where 
power shifted in a concrete way from the north to the south. 
And the establishment, the creation of more states in the 
north, I think there are 19 states now, they always believed 
that in the area you hold together, but they began to go their 
separate way and some would actually make allowances with other 
states in the south. But effectively, they lost power in the 
Federal Government.
    Why is this important? Because Nigeria is a typical 
developing country and the government plays a very substantial 
role in the economy. You don't have the private sector to come 
to balance and if you control government, you are able to do 
that. Where I am going is in the north, especially in the '80s, 
it began to show that they didn't have people who were educated 
to become part of the economy. They created states that 
couldn't attract businesses because you didn't have an educated 
class, so the poverty just kept increasing more and more. They 
have kids who don't go to school. You have 8-year-olds already 
in the streets trying to sell things, instead of being in 
school, so that you get to the point where a kind of 
helplessness begins to settle in, because in between they see 
the ruling class is actually doing very well, sending their 
kids abroad to schools, but refusing to spend money, state 
money on education for the indigents.
    So you get to a point where you have really a lot of 
poverty, but a lack of skill sets to do anything. And in steps 
somebody like Mohammed Yusuf who is actually pretty well-
educated himself, he is a university graduate, Yusuf steps in 
and goes up and gathers these people into a compound. He is 
able to feed them. You feed them. You have the church. You 
really can work on them. And because they are hopeless anyway, 
they will do anything for you, anything you tell them. And he 
says this is it. Just like that was said until the year 2009, 
Boko Haram it wasn't that terrorist organization because it was 
more, it was engaged in activities that were on a smaller 
scale, more akin to what Hamas would be doing in Palestine.
    So again, if we look at it on a broader level, it is there, 
but again, on an individual level, people experience it 
differently.
    Ms. Bass. Thank you very much.
    Mr. Nzeribe. You are welcome.
    Mr. Smith. I would like to thank our distinguished 
panelists for your work and for sharing with us your expertise 
and insights. It has been most helpful. And I do think your 
presence certainly helped the administration focus a little 
harder on designating Boko Haram as a foreign terrorist 
organization, so thank you for that as well. And is there is 
anything you would like to say before we conclude, any of our 
witnesses?
    Mr. Ogebe. We want to thank you most kindly, Mr. Chairman, 
for your leadership on this issue. I honestly believe that if 
you hadn't taken the issue head on, that we may not have had 
the conclusion that we had today. So thank you very much for 
making my Christmas wish come true early.
    Mr. Smith. Thank you. And we will do vigorous oversight and 
do whatever we can to be helpful and we will revisit and are 
doing it already with the application or the over application 
of the Leahy amendment, and I thank you for your insights on 
that as well and all the others with regards to victims. And 
this hearing is adjourned and I express my deep gratitude.
    Mr. Ogebe. Thank you.
    [Whereupon, at 4:01 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                      Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
